The Export-Import Bank of the United States (Ex-Im Bank) is the official
export credit agency of the United States. The mission of the Bank is to assist in
financing the export of U.S. goods and services to international markets. Ex-Im
Bank enables U.S. companies — large and small — to turn export opportunities
into sales that help to maintain and create U.S. jobs and contribute to a stronger
national economy. In FY 2008, the Bank authorized 2,793 transactions totaling
$14.4 billion. Ex-Im Bank is an independent executive agency and a wholly
owned U.S. government corporation that is celebrating 75 years of service to the
nation in 2009. Information about the Bank is available at www.exim.gov.

The Office of lnspector General (OIG) was organized in 2007 as an
independent office within Ex-Im Bank to support the Bank's mission and goals by
detecting and responding to fraud, waste and abuse involving Ex-Im Bank
programs and personnel and to promote economy and efficiency in Bank
operations. The Inspector General is charged by the Inspector General Act of
1978 with responsibility for conducting audits, inspections and investigations, and
keeping the Chairman of Ex-Im Bank and the Congress fully and currently
informed about problems and deficiencies relating to the administration of Ex-Im
Bank programs and operations.

Online Availability – this report and copies of other reports describing OIG audits,
evaluations and other actions addressed in this report are available at
www.exim.gov/oig. Information about the responsibilities of Inspectors General
across the U.S. government can be found at www.ignet.gov.

Additional Copies – for additional copies of this report or those from prior periods,
write:

Office of Inspector General
Export-Import Bank of the United States
812 Vermont Ave. N.W.
Washington D.C. 20571

Or call: 202 565-3908
MICHAEL W. TANKERSLEY
INSPECTOR GENERAL                   EXPORT-IMPORT BANK
                                    OF THE UNITED STATES


From the Inspector General:
This fourth Semiannual Report to Congress of the Office of Inspector General (OIG) of the
Export-Import Bank of the United States (Ex-Im Bank) summarizes the work of the OIG during
the reporting period of October 1, 2008 to March 31, 2009. OIG staff have during this time
completed significant audits, evaluations and investigations of Ex-Im Bank programs and
operations, while laying the groundwork for expanded operations in future periods. The rapid
and effective development of this office is particularly important at this time in view of the
Bank’s leading role in responding to the decrease in private sector export funding resulting from
the international financial crisis.

The OIG completed its initial phase of hiring during the period by adding four experienced
special agents and two experienced auditors, bringing the OIG headcount to a total of eleven,
compared to one, the Inspector General, as of March 31, 2008. The OIG’s staff are executing the
responsibilities of the office with a high degree of energy and professionalism, marking
significant achievements in audits and investigations, while simultaneously working to achieve
familiarity with the people and operations of Ex-Im Bank and assisting with the development of
OIG policies and procedures.

The auditing team completed four significant engagements during the period: the annual audit of
Ex-Im Bank’s financial statements, an audit of the security of the Bank’s IT systems responding
to the Federal Information Security Management Act of 2002 (FISMA) and a performance audit
and related evaluation report examining the Bank’s medium term export credit insurance and
guarantee programs. The medium term programs were the target of significant fraud during the
period of 2002 to 2006 that has been publicly reported, and they continue to experience
significant default claims. The performance audit report presents eight recommendations to
augment the work undertaken by management to improve the performance of the medium term
programs by accelerating the Bank’s responsiveness to its customers, more consistently
implementing procedures to decrease fraud exposure and providing additional tools with which
to more effectively manage risk in the programs.

The Office of Investigations has rapidly developed its capability to investigate fraud in the
Bank’s export credit transactions, establishing effective working relationships with U.S.
government law enforcement and administrative offices having direct access to critical resources,
such as the Postal Inspection Service, the U.S. Maritime Administration and Immigration and
Customs Enforcement, as well as private sources that include banks, exporter security offices,
shippers and insurance industry groups. The OIG at March 31, 2009 had open 35 distinct fraud
investigations, representing more than $230 million of claims paid by the Bank in more than 240
separate transactions. We are working actively with the Department of Justice to investigate,
indict and convict the responsible parties. In coming months I expect to be able to announce the
successful execution of searches and seizures, arrests and indictments of individuals responsible



                811 Vermont Avenue, N.W. Washington, D.C. 20571
for serious frauds against Ex-Im Bank in cases developed by the Ex-Im Bank OIG investigations
team.

In a notable early success, an OIG investigator helped save the Bank, and taxpayers, more than
$1 million during the reporting period by moving quickly to develop evidence that conclusively
established that asserted exports of equipment purportedly covered by the Bank’s insurance had
not occurred. This evidence allowed the Bank to deny payment of a claim and terminate
coverage under an insurance policy. We are working to expand this capability to become a
regular element of the Bank’s consideration of the relevant categories of claims.

The OIG’s development owes much to the assistance of other members of the inspector general
community who have provided guidance, loaned personnel, offered examples of effective
policies and answered every call for help promptly and generously. In an effort to return this
support, the OIG serves as the liaison between the cross-government organization that supports
the inspector general mission - the Council of Inspectors General on Integrity and Efficiency
(CIGIE) created pursuant to the Inspector General Reform Act of 2008 - and the U.S.
government’s Chief Information Officer (CIO) Council. In this role the OIG serves as a conduit
for the effective flow of important information between the Office of Management and Budget
(OMB), CIO’s managing the government’s vast information technology operations and the
inspector general community.

Examples of the OIG’s service as CIO Council Liaison during the reporting period include (i)
organizing the participation of independent inspector general IT operations in a government-
wide response to a potential security threat, (ii) coordinating initial communications between
OMB and the inspector general community in the days following the enactment of the American
Recovery and Reinvestment Act (ARRA), until the Recovery Accountability and Transparency
Board’s staff could organize and assume the task, and (iii) preparing and distributing monthly
digests of CIO Council communications that are of interest to the CIGIE community.

I am very proud of the fine organizational work of the OIG leadership team of Jean Smith,
Assistant Inspector General for Audits, Lawrence Valett, Assistant Inspector General for
Investigations, and Osvaldo Gratacos, Counsel to the Inspector General, in conceiving and then
executing the plans that have produced the high level of activity and results described in this
report. I look forward to providing future reports to Congress of the expanding work of this new
office as it accomplishes the OIG mission within Ex-Im Bank.




Michael W. Tankersley
Inspector General
April 30, 2009
Overview

The Office of Inspector General (OIG) at the Export-Import Bank of the United States
(Ex-Im Bank) began its existence on August 6, 2007 with the swearing in of Ex-Im
Bank’s first Inspector General. Initial investigation and evaluation work was launched
with detailed staff loaned by other offices of inspector general in October of 2007. The
hiring of initial staff commenced in April 2008 and was completed in March 2009.

The OIG is an independent office within Ex-Im Bank that supports the Bank's mission
and goals by working to detect and respond to fraud, waste and abuse involving Ex-Im
Bank programs and personnel and to promote economy and efficiency in the Bank’s
operations. The Inspector General is charged by the Inspector General Act of 1978 (IG
Act) with responsibility for conducting audits, inspections and investigations and keeping
the Chairman of Ex-Im Bank and the Congress fully and currently informed about
problems and deficiencies relating to the administration of Ex-Im Bank programs and
operations.

During the six month reporting period that ended March 31, 2009, and in addition to the
audits and investigations described in following sections of this report, the Ex-Im Bank
OIG’s activities included:

 •	 Monitoring the actions that Ex-Im Bank is taking to respond to the international
    financial crisis and withdrawal of significant sources of private sector export-credit
    financing with the objectives of (a) understanding changes in the risks encountered
    by the Bank and resulting challenges for its system of controls and (b) identifying
    targets for more detailed evaluation to reduce the risk of fraud and increase the
    efficiency and effectiveness of the Bank’s programs;

 •	 Meeting regularly with the staff of the Bank’s Office of General Counsel and Asset
    Management Division to discuss referrals to the OIG of claims and other matters
    where evidence indicating the possibility of fraudulent acts against the Bank has
    been identified and to coordinate their work in support of OIG investigations;

 •	 Discussing with the Bank’s management the benefits that might accrue from
    expanding the Bank’s risk management policies and procedures to encompass a
    formal risk management program;

 •	 Working to develop the full range of written policies required to support the
    operations of the OIG in the areas of strategic goals, audits, investigations, staff
    performance goals and reviews and general administrative matters;

 •	 Working with the Bank’s Human Resources Division to complete the development
    of positions specifications, posting and selection processes that resulted in the
    successful hiring during the reporting period of four experienced investigators, two
    experienced auditors and the OIG office manager;



                             Office of Inspector General – Semiannual Report to Congress 1
 •	 Serving as the liaison between the Council of Inspectors General on Integrity and
    Efficiency (CIGIE) and the U.S. government’s Chief Information Officer (CIO)
    Council. Examples of CIO Council Liaison actions during the reporting period
    included (a) attending and reporting on meetings of the CIO Council, (b) preparing
    and distributing monthly digests of CIO Council communications that are of interest
    to the CIGIE community, (c) organizing the participation of independent inspector
    general IT operations in a government-wide response to a potential security threat
    and (d) coordinating initial communications between OMB and the inspector
    general community in the days following the enactment of the American Recovery
    and Reinvestment Act (ARRA), until the Recovery Accountability and
    Transparency Board’s staff could organize and assume the task;

 •	 Initial work to develop an information technology strategic plan for the OIG relying
    in significant part on the technical skills and leadership of one of the senior agents
    hired by the OIG Office of Investigations, who previously was responsible for the
    Computer Crimes Unit of the Environmental Protection Agency’s Office of
    Inspector General; and

 •	 Evaluating the requirements to create a capability within the OIG to conduct on-site
    inspections of transactions and transaction participants, before, during and after
    the Bank’s authorization of support for specific transactions, and to confirm
    transaction integrity and conformity to applicable law, Bank rules and
    representations made to the Bank, utilizing private sector contractors or OIG staff
    having expertise in financial transactions like those supported by the Bank.

                                Summary of Activity

As required by the IG Act, presented below is an activity summary of the audits,
evaluations, requests from Congress, hotline complaints and fraud investigation
referrals addressed by the Ex-Im Bank OIG for this reporting period.

Audits and Evaluations

The Ex-Im Bank OIG Office of Audits completed its initial hiring program during the
reporting period, resulting in a staff of two experienced auditors, both of whom bring
substantial experience from the Department of Veterans Affairs Office of Inspector
General, in addition to the Assistant Inspector General for Audits.

The Office of Audits issued three audit reports during the six months ended March 31,
2009: (i) an audit of Ex-Im Bank’s financial statements for fiscal year (FY) 2008; (ii) a
performance audit of Ex-Im Bank’s information security program and practices required
by the Federal Information Security Management Act of 2002 (FISMA); and (iii) a
performance audit of the Bank’s Medium Term Export Credit Programs (MT Program).
Each of the audits was performed by a contractor supervised by the OIG audit staff.
The OIG also issued a Supplemental Evaluation Report Regarding Medium Term



Office of Inspector General – Semiannual Report to Congress 2
Programs addressing additional conditions noted during the course of the MT Program
performance audit.

At the end of the reporting period, the Office of Audits had three additional projects
underway: (i) monitoring the actions that Ex-Im Bank is taking in response to the
international financial crisis and related withdrawal of private sector export financing
capability in order to identify specific subjects for further evaluation as deemed
advisable; (ii) a performance audit assessing the adequacy of IT systems and support
for the Bank’s MT Programs, including a review of IT governance; and (iii) an evaluation
of the efficiency and effectiveness of Ex-Im Bank economic impact review procedures.
Work on the Bank’s FY2009 financial statement audit and a 2009 FISMA audit are
expected to commence early in the next reporting period.

Audits Issued During Period

Medium Term Export Credit Program – Credit and Fraud Risk Management and
Business Process Improvement. The OIG, utilizing the services of an independent
contractor, completed a performance audit of the Bank’s Medium Term Export Credit
Programs (MT Program) that had been undertaken at the request of Ex-Im Bank’s
Chairman. The MT Program has significantly underperformed other Bank programs in
recent years, accounting for a disproportionate share of credit and fraud losses.
Indictments and plea agreements in several high-profile fraud cases emanating from the
MT Program have been announced in the past 18 months. For example, of $965 million
of MT Program transactions authorized in 2004 that were funded, approximately $256
million of claims for defaulted loans have been paid by Ex-Im Bank (reduced by
recoveries of approximately $14 million). Approximately $101 million of these claims
were associated with the publicly disclosed fraud schemes. Management has taken
action to reduce these losses, which are described in management’s response to the
MT Program audit, and claims rates and reported instances of fraud in subsequent
years have declined from this high level, but have remained above historic norms.

The audit found that Ex-Im Bank had not developed adequate customized policies,
controls, systems and tools to address the enhanced risks of the MT Program. To
improve credit and fraud risk management and business processes, the report’s
recommended actions included:

 •	 Require on-site inspections and appraisals of financed goods/equipment as well as
    bank/brokerage statements to confirm borrower liquidity;
 •	 Establish an automated monitoring system and require more frequent remittance of
    borrower payments;
 •	 Formalize a lender oversight function for MT Program lenders;
 •	 Establish quality control processes focused on the MT Program;
 •	 Revamp the exposure fee pricing structure for non-sovereign transactions to more
    effectively price for the risk;




                            Office of Inspector General – Semiannual Report to Congress 3
 •	 Consider moving away from a 100% guarantee for non-sovereign transactions 

    towards more risk sharing between Ex-Im Bank and lenders to reduce “moral 

    hazard” associated with MT Program transactions; 

 •	 Standardize borrower submission requirements, including better defining what
    constitutes a complete application and creating a team responsible for processing
    more challenging applications; and
 •	 Develop a strategic plan to provide stronger leadership and direction for the MT
    Program.

Management acknowledged the need for improvement with regard to a majority of the
findings made in the report and cited actions management has recently taken or will
take to address the issues raised by the MT Program audit’s findings and
recommendations. Management committed to act upon six of the eight
recommendations and declined to take action on two recommendations. A copy of the
MT Program audit report can be found at:
 http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_Audit_Report.pdf)

Fiscal Year 2008 Financial Statement Audit. An independent public accountant (IPA),
working under OIG supervision, conducted an audit of Ex-Im Bank’s financial
statements for FY 2008. The IPA issued an unqualified opinion on Ex-Im Bank’s
financial statements. Also, the IPA reported no material weaknesses were identified
and no reportable noncompliance with laws and regulations was found. A copy of the
FY 2008 Financial Statement Audit can be found at:
(http://www.exim.gov/oig/documents/audit_fiscal_year2008financial_statements.pdf)

During the performance of the annual financial statement audit, the IPA noted certain
control deficiencies related to Ex-Im Bank’s internal control over financial reporting and
other matters. Recommended actions to strengthen controls were:

 •	   Review the annual credit subsidy re-estimate cash flow models in advance of the
      time when the re-estimate calculation is performed.
 •	   Correct the claims and recovery system to record claims payable upon approval of
      payment and reverse the claims payable amount once payment actually takes
      place and is confirmed.
 •	   Obtain formal OMB approval of the accounting methodology relied upon by the
      Bank as a “self-sustaining” entity funded by its positive operating cash flow rather
      than appropriations.
 •	   Update system records of changes to guarantee or insurance agreements more
      promptly.
 •	   Update the accounting manual of policies and procedures.
 •	   Automate the allocation of insurance receipts to the proper transactions in the 

      Bank’s financial accounts. 


Six recommendations were made to correct the deficiencies and management
concurred with all the findings and recommendations. A summary of the findings and




Office of Inspector General – Semiannual Report to Congress 4
recommendations and management’s responses can be found at:
(http://www.exim.gov/oig/documents/fy08financial_statement_audit_managementletter.pdf)

Annual Information Security Audit. FISMA requires an annual independent evaluation
of Ex-Im Bank’s information security program and practices. The OIG contracted with
an IPA to perform the FISMA review of Ex-Im Bank’s systems. The audit included
assessing the agency’s progress in developing, documenting and implementing an
agency-wide program to provide security for the information and information systems
that support operations and assets of the agency, including those provided or managed
by another agency, contractor or other source. The audit also included reviewing the
agency’s privacy program and the privacy impact assessment process.

The audit determined that Ex-Im Bank’s systems inventory was accurate and complete,
the plan of action and milestones process was adequate and the certification &
accreditation process was satisfactory. Additionally, Ex-Im Bank maintained an
excellent privacy impact assessment process. While the audit noted that Ex-Im Bank
currently has a security program underway, further action is needed.

The audit made four recommendations which should strengthen Ex-Im Bank’s
information security. The Chief Information Officer agreed with the findings and
presented actions taken and planned, which the OIG believes will address the
recommendations.

Because this report addresses issues associated with the security of information at Ex-
Im Bank, the OIG did not make the report available on-line. The OIG will make copies
of this audit report available under the provisions of the Freedom of Information Act
(FOIA). To learn how to file a FOIA request, please see the following link:
http://www.exim.gov/about/disclosure/foiahowto.cfm .

On-Going Audits

Medium Term Export Credit Program – IT Systems, Support and Governance. In
connection with the MT Program performance audit addressing credit and fraud risk and
business process improvement described above, the IPA is also conducting a
performance audit to assess (i) the adequacy of Ex-Im Bank IT systems and support to
provide timely, accurate and useful information with primary focus on the Bank’s Ex-Im
Online system and other related systems used throughout the MT Program transaction
lifecycle and (ii) the state of IT governance as it relates to Ex-Im Bank’s processes for
creating, modifying and executing plans for the development and improvement of IT
system support for the MT Program.

At the end of this reporting period, the IPA and OIG audit staff were finalizing the draft
report for distribution to Ex-Im Bank’s management for their response.




                              Office of Inspector General – Semiannual Report to Congress 5
Evaluation Reports Issued During Period

The OIG identified a number of conditions affecting the efficiency and effectiveness of
the MT Program during the course of the MT Program audit where the scope of the
audit limited available evidence to support audit findings and recommendations in
accordance with generally accepted government auditing standards. A separate
evaluation report was prepared that addresses those conditions by providing to Ex-Im
Bank management supplemental observations, findings and related suggestions. A
copy of the Supplemental Evaluation Report can be found at:
(http://www.exim.gov/oig/documents/MT_Evaluation_Letter.pdf).

The principal findings addressed and conclusions expressed in the report are as
follows:

 •	   The fraud risks associated with the MT Program need to be addressed directly, as
      recommended in the MT Audit, rather than indirectly as proposed by Ex-Im Bank
      management, in order to provide assurance that the causes of the program’s
      excessive fraud losses in recent years do not continue to produce unacceptable
      levels of performance.

 •	   The cash flow-based lending/underwriting model upon which the MT program is
      based is unlikely to achieve an acceptable level of performance because it is
      fundamentally inconsistent with the inherent risks presented by conditions existing
      in the MT Program marketplace. While the cash flow-based lending model
      provides a reasonable basis for addressing the economic risk associated with MT
      Program transactions, additional actions addressing the inherent fraud risks in the
      MT Program will be required.

 •	   In order to address the risks inherent in the MT Program marketplace, Ex-Im Bank
      should model the “structural” elements (application requirements, factual
      verifications, documentation, payment terms, monitoring and collection practices)
      of the MT Program more closely on the practices and procedures used by private
      sector lenders in the markets it serves to limit fraud exposure. Structural
      requirements that are comparable to other private sector lenders in the borrower’s
      markets should not be a disincentive to use the MT Program or result in an undue
      burden on MT Program lenders.

On-Going Evaluations

Actions to Address International Financial Crisis. The OIG is monitoring the actions that
Ex-Im Bank is taking to respond to the international financial crisis and withdrawal of
significant sources of private sector export-credit financing with the objectives of (a)
understanding changes in the risks encountered by the Bank and resulting challenges
for its system of controls and (b) identifying targets for more detailed evaluation to
reduce the risk of fraud and increase the efficiency and effectiveness of the Bank’s
programs.



Office of Inspector General – Semiannual Report to Congress 6
Further Review of Economic Impact Procedures. The OIG continued work on its further
review of Ex-Im Bank’s economic impact procedures and the recommendations made in
a report prepared by the U.S. Government Accountability Office (GAO), Export-Import
Bank – Improvements Needed in Assessment of Economic Impact (GAO-07-1071).
This review is intended to provide management with focused recommendations for
improvements to Ex-Im Bank’s economic impact review, policies and procedures and is
expected to be completed during the next reporting period.

Government Accountability Office (GAO)

The IG Act states that each Inspector General shall give particular regard to the
activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the
GAO issued no reports related to Ex-Im Bank activities. Ex-Im Bank was referenced in
GAO testimony before the U.S. House of Representatives Subcommittee on
Commerce, Trade and Consumer Protection of the Committee on Energy and
Commerce. See International Trade: Effective Export Programs Can Help In Achieving
U.S. Economic Goals (GAO-09-480T, March 17, 2009). That testimony referenced
conclusions expressed in two earlier reports: (i) the Trade Promotion Coordinating
Committee’s 2008 National Export Strategy and (ii) Export-Import Bank: Performance
Standards for Small Business Assistance Are in Place but Ex-Im Is in the Early Stages
of Measuring Their Effectiveness (GAO-08-915, July 17, 2008).

Other Matters - Relationship Between OIG and Audit Committee

Ex-Im Bank’s Bylaws provide for an Audit Committee consisting of members of the
Board of Directors other than the Chairman and Vice-Chairman. The Bylaws state that:

      The Audit Committee, reporting to the Board of Directors, shall be responsible for
      providing assistance to the Board in fulfilling its accounting and reporting
      responsibilities, determining that Ex-Im Bank has adequate administrative and
      financial controls, reviewing the financial statements prepared by management
      for distribution to Congress and the public, and providing direction over the
      internal audit function and the independent accountants.

The OIG and the Audit Committee addressed several matters of common interest
during this reporting period in a mutually supportive manner intended to be consistent
with the independence of the OIG and a positive relationship with Ex-Im Bank, including
meeting with the contractor selected by the Audit Committee to provide internal audit
services for the Bank.




                            Office of Inspector General – Semiannual Report to Congress 7
INVESTIGATIONS AND HOTLINE ACTIVITY

The Ex-Im Bank OIG Office of Investigations completed its initial hiring program during
the reporting period, producing a team of five criminal investigators (including the
Assistant Inspector General for Investigations) with a combined background of over 77
years in federal law enforcement. These agents bring specialized experience in
investigations of financial fraud, procurement fraud, internal affairs, bribery & kickbacks,
money laundering, computer crimes and a variety of disciplines including financial
analysis, technical operations and tactical training. The Office of Investigations
completed several milestones during the reporting period that establish the
infrastructure necessary to support the full range of law enforcement operations
required by the types of fraud impacting the Bank’s transactions, including:

 •	 Completing internal Ex-Im Bank training focused on Bank operations, trade 

    finance, IT systems and resources, claims and recovery processes and records 

    management. 


 •	 Obtaining access and developing efficient search capabilities relative to key Ex-Im
    Bank data systems to facilitate analysis of important transactional records and
    secure resulting evidence.

 •	 Evaluating the OIG’s current body of cases to identify patterns and methods used
    in fraud schemes against the Bank, to identify counter-measures to allow the Bank
    to detect or avoid fraudulent schemes and to develop investigative techniques that
    will support the efficient accumulation of evidence to support charges against the
    responsible parties.

 •	 Establishing partnerships with law enforcement organizations having jurisdictional
    interest in Ex-Im Bank transactions and U.S. exports, including the Postal
    Inspection Service, the U.S. Maritime Administration and Immigration and Customs
    Enforcement, as well as other sources of support for OIG investigations that
    include U.S. consular offices, banks, exporter security offices, shippers and
    insurance industry groups.

 •	 Developing an effective working relationship with the Criminal Division and Civil 

    Division of the Department of Justice around matters of prosecutorial interest. 





Office of Inspector General – Semiannual Report to Congress 8
Summary of investigations

The Ex-Im Bank OIG Office of Investigations evaluates all reports of possible fraud or
illegality affecting Ex-Im Bank or its programs and activities. Such reports are received
from a variety of sources – Ex-Im Bank employees, the Ex-Im Bank Office of General
Counsel, participants in Ex-Im Bank transactions, other government agencies or the Ex-
Im Bank OIG Hotline. Evaluations that identify reasonable evidence of possible fraud or
illegality result in the opening of a “preliminary investigation” or a “case” based on the
strength of the evidence. These investigations are summarized in the table below.

 Summary of Investigative Activity During                             Totals         No. of Net Amount
 Period                                                                             Claims* Of Claims*
 Investigations open as of October 1, 2008                               22            96   $130,046,400
 Opened during period                                                    13           145   $100,107,458
 Closed during period                                                    0
 Investigations open as of March 31, 2009                                35            241        $230,153,858
*The number and net amount of claims subject to investigation. Not all investigations involve claims paid by Ex-Im
Bank. The referral of a claim to the OIG for investigation does not establish the existence of fraud, and not all claims
included in a case under investigation are necessarily fraudulent until proven to be so by evidence developed in the
investigation. The number and amount of claims may vary during the course of an investigation as facts and findings
develop, as post-default interest accrues and collection expenses are incurred and as the Bank obtains recoveries of
funds through its civil collection efforts. Accordingly, the number and dollar amount of claims reported is subject to
fluctuation between reporting periods.

The following table breaks down the 241 claims that are currently the focus of open
investigations by the Ex-Im Bank OIG by the fiscal years during which the transactions
were authorized (which would generally be the year in which any associated fraud was
committed). The time period between the date a transaction is authorized, the date of
its funding and the date of a subsequent default that typically is the trigger for the
resulting fraud investigation can vary significantly, from an interval of a few months in
some cases to many years in other cases.

               Year Transaction Authorized                         No. of        Net Amount
                                                                   Claims         Of Claims
               2000 and earlier                                        10          $ 4,523,816
               2001                                                    18         $24,517,395
               2002                                                    18         $13,054,461
               2003                                                    33         $13,800,227
               2004                                                    93        $123,868,578
               2005                                                    43         $33,604,923
               2006                                                    16         $15,197,030
               2007                                                     9          $1,167,058
               2008                                                     1             $420,369

                                                                       241       $230,153,858




                                       Office of Inspector General – Semiannual Report to Congress 9
Summary of Investigative Results

The investigative activities of the Ex-Im Bank OIG commenced with the arrival of the
Assistant Inspector General for Investigations in September 2008 and have expanded
significantly with the arrival of four additional experienced agents in February 2009.
Significant time is required to develop investigations into prosecutable cases, and then
into plea agreements and convictions, that result in the types of remedies described
below.

Semi-Annual Period                             Ex-Im OIG         Joint         Totals
(October 1, 2008 – March 31, 2009)               Only       Investigations*
Results of Prosecutive Actions
Matters referred to Dept. of Justice               1               3             4
Criminal indictments/informations/complaints       0               0             0
Convictions/settlements/judgments                  0               0             0
Prison time (including time suspended)             0               0             0
Probation                                          0               0             0
Community service                                  0               0             0
Fines and recoveries (including civil)             0               0             0
Results of Administrative Actions              Ex-Im OIG         Joint         Totals
                                                 Only       Investigations*
Suspensions                                        0               0              0
Debarments                                         0               0              0
Compliance agreements                              0               0              0
Other administrative/disciplinary actions          0               0              0
Administrative recoveries, repayments, cost
savings                                        $1,047,677         0           $1,047,677
* With another federal agency

Hotline Activity

The Ex-Im OIG maintains a Hotline reachable by telephone, email or mail to receive
reports of fraud, waste and abuse in Ex-Im programs and operations. Hotline reports
are evaluated by the Office of Investigations and based on the available evidence, may
then be made the subject of an investigation, may be referred to other law enforcement
authorities having jurisdiction or may be referred to management for administrative
action.

The OIG received no Hotline reports during the reporting period. Hotline reports can be
made by phone at 1-866-571-1801, by email to IGhotline@exim.gov, or by mail or
delivery service to Ex-Im Bank OIG Hotline, Office of Inspector General, 811 Vermont
Ave. NW, Washington DC 20571. The OIG will not disclose the identity of a person
making a report through the Hotline without their consent unless the Inspector General
determines such disclosure is unavoidable during the course of an investigation.




Office of Inspector General – Semiannual Report to Congress 10
Significant Indictments/Prosecutions During Reporting Period

Summarized below are the facts of three recent investigations arising out of illegal
activity affecting Ex-Im Bank programs that have produced indictments or convictions of
responsible parties. These matters were commenced prior to the creation of the Ex-Im
Bank OIG and were investigated by other law enforcement offices, although the Ex-Im
Bank OIG did provide support to the Department of Justice relative to the Andrew
Parker/San Antonio Trade Group matter described below following his indictment. As
the Office of Investigations continues to develop its capabilities, further involvement in
these and other pending investigations and prosecutions is expected.

Former Employee Charged with Corruption and Tax Violations. On February 24, 2009,
the Department of Justice announced in a press release that Maureen Njideka Edu,
a/k/a Maureen N. Scurry, a former employee of Ex-Im Bank, was indicted by a federal
grand jury in Washington DC for conspiring to solicit and accept bribes and to deprive
the United States and the Ex-Im Bank of her honest services, as well as substantive
counts of bribery, honest services wire fraud and filing a false tax return. The indictment
also sought the forfeiture of $100,000 from Edu.

According to the indictment, Edu worked for Ex-Im Bank from May 2000 to October
2004 as a business development specialist covering Africa and focusing on sub-
Saharan Africa, which included the West African nation of Nigeria. During the course of
her work, according to the indictment, Edu was introduced to Nigerian businessmen
who were seeking to buy certain products and services from a Kentucky-based
technology company in a deal worth approximately $44 million. The Nigerian
businessmen were seeking financial support from Ex-Im Bank to guarantee or insure
financing for the transaction. The indictment alleges that the Nigerian businessmen
agreed to pay Edu a bribe of $173,500, with an initial installment of $100,000, in return
for her promise to perform official acts to assist the Nigerian businessmen and their
company in obtaining financial support from Ex-Im Bank.

The indictment also alleges that, on February 24, 2004, one of the Nigerian
businessmen wrote a letter to a bank in Nigeria captioned “Facilitation Fees to Maureen
Scurry,” in which the businessman asked that $100,000 be “transferred to Miss
Maureen Scurry of US-EXIM Bank to enable her to facilitate our guarantees with Ex-im
[sic] Bank.” According to the indictment, the letter also stated that the Board of
Directors requested the personal assistance of Scurry to expedite the processes with
Ex-Im Bank and that the “total amount agreed upon between ourselves was
US$173,500,” but that “the balance will be paid once the transaction is over and monies
are disbursed.” According to the indictment, on February 27, 2004, a wire transfer of
$100,000 was sent to the Edu’s personal bank account at a bank in the District of
Colombia. Due to disputes between the Nigerian businessmen and the Kentucky-based
technology company, according to the indictment, the business deal later ended in mid-
2004 before any products or services were provided.




                            Office of Inspector General – Semiannual Report to Congress 11
An indictment is merely a charge and the defendant is presumed innocent until proven
guilty.

The case is being prosecuted by the Department of Justice Criminal Division’s Fraud
Section and Assistant U.S. Attorneys from the U.S. Attorney’s Office for the Eastern
District of Virginia, who have been specially appointed to prosecute the matter in the
District of Columbia. The U.S. Attorney’s Office for the District of Columbia’s Fraud and
Public Corruption Section also provided considerable support and assistance.

(The case was investigated by the FBI and the Internal Revenue Service, Criminal
Investigation Division. Ex-Im Bank assisted and cooperated throughout the
investigation of this matter).

California Man Sentenced to 18 months in Scheme to Defraud Ex-Im Bank. On
February 10, 2009, the Department of Justice announced in a press release that Carlos
Serrano, 64, of Glendale, California, was sentenced in the U.S. District Court for the
Central District of California to 18 months in a community correctional facility in
connection with a $1.3 million scheme to defraud the First International Bank of
Connecticut (FIB) and Ex-Im Bank. In addition to his prison sentence, Serrano was
placed on five years of probation and ordered to pay restitution of $924,569 to Ex-Im
Bank.

Following a four-day trial, Serrano was convicted on September 18, 2008, of conspiring
to commit bank fraud and committing bank fraud in connection with a fraudulent $1.3
million loan transaction involving FIB and Ex-Im Bank. At trial, the jury heard testimony
that in approximately November 2000, Serrano met with alleged co-conspirators and
agreed to act as an exporter in a loan transaction between a company in the Philippines
and FIB, in which Ex-Im Bank acted as guarantor. According to trial testimony,
Serrano’s sole job in the transaction was to obtain a $200,000 down payment from the
Philippine company, purchase $1.3 million in U.S. goods on behalf of the Philippine
company, ship the purchased goods to the Philippine company and certify to FIB and
Ex-Im Bank that he had purchased and shipped those goods. The jury heard testimony
that Serrano contacted U.S. suppliers using a fake name for the purpose of obtaining
price quotes, but that he never actually purchased any goods. Jurors also heard
testimony that Serrano certified in documents sent to and relied upon by FIB and Ex-Im
Bank that he had purchased $1.3 million in U.S. goods and shipped those goods to the
Philippines.

In reliance on Serrano’s false statements, FIB delivered to Serrano $1.1 million in loan
proceeds. Testimony revealed that after receiving the loan proceeds, Serrano paid
himself approximately $28,000, sent approximately $949,000 to an alleged co-
conspirator and sent approximately $160,000 to a company in Singapore. As a result of
the fraud, Ex-Im Bank lost $924,569.




Office of Inspector General – Semiannual Report to Congress 12
This case is part of a broader investigation into an $80 million scheme to defraud Ex-Im
Bank between November 1999 and December 2005. To date, eight individuals have
pleaded guilty or been convicted for their involvement in the fraud scheme.

(The case was prosecuted by the Department of Justice Criminal Division’s Fraud
Section and the U.S. Attorney’s Office for the Central District of California. The case
was investigated by the U.S. Postal Inspection Service and the FBI.)

Texas Exporter Sentenced in Scheme to Steal Millions from Ex-Im Bank. On October
27, 2008, Andrew Parker, owner of San Antonio Trade Group, was sentenced in United
States District Court for the Western District of Texas, San Antonio, Texas, to 117
months in Prison, 36 months probation and ordered to pay $10 million in restitution to
Ex-Im Bank and to forfeit a vehicle and real property. Parker had been arrested in May
2008 based upon an indictment by a federal grand jury which charged that from
February 2003 to November 2006, Parker schemed to defraud Ex-Im Bank by stealing
millions of dollars in loan proceeds obtained by Mexican business owners from private
U.S. lenders and causing multi-million dollar losses to Ex-Im Bank, resulting in losses to
Ex-Im Bank exceeding $100 million. The indictment also charged Parker with
defrauding lenders in transactions not insured or guaranteed by Ex-Im Bank. On
August 21, 2008, Parker pled guilty to eleven counts of the indictment including
conspiracy, wire fraud, money laundering, tax evasion and filing false tax returns.
The Ex-Im Bank OIG provided support to Department of Justice, IRS Criminal
Investigations Division, Immigrations and Customs Enforcement (ICE) and the FBI in
connection with the investigation of Mr. Parker commencing in April 2008.
 (This investigation was conducted by the FBI, the IRS Criminal Investigations Division
and ICE and prosecuted by the U.S. Attorney’s Office for the Western District of Texas.)

Philippines Loan Broker Indicted. On October 7, 2008, Department of Justice
announced that a federal grand jury in the District of Columbia had returned a nine-
count indictment charging that Bettina Balderrama, a/k/a Bonnie Balderrama, 57, of
Manila, Philippines, had brokered approximately $15 million worth of fraudulent loan
transactions between companies located in the Philippines and U.S. lending banks, in
which Ex-Im Bank acted as guarantor or insurer.

According to the indictment, between December 2001 and October 2004 Balderrama
identified companies in the Philippines that wanted to borrow money to purchase U.S.
goods and lending banks in the United States that would lend money for the purpose of
buying U.S. goods. Balderrama then assisted the borrowers in executing loan
agreements with the lending banks and in obtaining loan guaranties or insurance
policies from Ex-Im Bank as part of the loan agreements. The indictment alleges that
Balderrama recruited a U.S. exporter, Cristina Song, for the purpose of purchasing U.S.
goods and shipping those goods to the Philippine borrowers, and then instructed Song
to prepare false shipping documents and submit those false documents to the lending
banks to make it appear that she had purchased and shipped goods. The indictment
alleges that Song did not purchase the goods called for in the loan agreements but


                            Office of Inspector General – Semiannual Report to Congress 13
instead misappropriated a majority of the loan proceeds and sent large portions of those
proceeds to bank accounts owned and controlled by Balderrama and other foreign bank
accounts as directed by Balderrama.

Balderrama was charged with one count of conspiracy to defraud the United States and
to commit offenses against the United States; three counts of submitting false
statements to Ex-Im Bank; one count of conspiracy to commit money laundering; three
counts of money laundering; and one count of obstructing a proceeding before a
department and agency of the United States. The indictment also seeks forfeiture from
Balderrama of the misappropriated loan proceeds.

This case is part of the broader investigation referred to above in the description of the
Serrano conviction.

(The case was prosecuted by the Department of Justice Criminal Division’s Fraud
Section and the U.S. Attorney’s Office for the Central District of California. The case
was investigated by the U.S. Postal Inspection Service and the FBI.)




Office of Inspector General – Semiannual Report to Congress 14
                   CROSS-REFERENCE TO REPORTING REQUIREMENTS
                          OF THE INSPECTOR GENERAL ACT

Set forth below are cross-references of the reporting requirements prescribed by the identified
sections of the IG Act to the specific pages in this Semiannual Report where they are
addressed.


CITATION            REPORTING REQUIREMENTS                                          PAGE
Section 4(a)(2)     Review of legislation and regulations                           None

Section 5(a)(1)     Significant problems, abuses and deficiencies                   None

Section 5(a)(2)     Recommendations with respect to significant problems,           None
                    abuses and deficiencies

Section 5(a)(3)     Prior significant recommendations on which corrective           None
                    action has not been completed

Section 5(a)(4)     Matters referred to prosecutorial authorities                   12

Section 5(a)(5)     Summary of instances in which information was refused           None

Section 5(a)(6)     List of audit reports by subject matter, showing dollar value   3-7
                    of questioned costs and recommendations that funds be
                    put to better use

Section 5(a)(7)     Summary of each particularly significant report                 3-7

Section 5(a)(8)     Statistical table showing number of reports and dollar value    None
                    of questioned costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value    None
                    of recommendations that funds be put to better use

Section 5(a)(10)    Summary of each audit issued before this reporting period       None
                    for which no management decision was made by end of
                    reporting period

Section 5(a)(11)     Significant revised management decisions                       None

Section 5(a)(12)    Significant management decisions with which the Inspector       None
                    General disagrees
If you suspect fraud, waste, abuse, or other misconduct at the 

     Export-Import Bank of the United States, contact us.





                 OIG HOTLINE

                  1-866-571-1801




      The OIG Hotline is available 24 hours per day.
      The caller can remain anonymous. Federal employees
    are protected from reprisal under the provisions of the
  Whistleblower Protection Act of 1989. For more information,
   see the MSPB publication “Questions and Answers About
                     Whistleblower Appeals.”

    If you prefer, you may send written complaints to:

                   IGhotline@exim.gov or

         Export-Import Bank of the United States 

                Office of Inspector General

                          Room 978

                811 Vermont Avenue, N.W.

                   Washington, DC 20571

